      Statement of Gregory H. Friedman

              Inspector General

          U.S. Department of Energy




                 Before the




Committee on Oversight and Government Reform

        U.S. House of Representatives




                                      FOR RELEASE ON DELIVERY
                                                        10:00am
                                                  August 1, 2013
Mr. Chairman and Members of the Committee, I appreciate the opportunity to testify at your request
on the Office of Inspector General’s (OIG) July 2013 Management Alert concerning alleged
whistleblower retaliation and prohibited personnel practices at the Bonneville Power
Administration.




Bonneville, a component of the Department of Energy, was established in 1937 as a self-funding
agency that covers its approximately $4.4 billion in annual costs by marketing electric power to all
or parts of eight states in the Pacific Northwest. This electric power is generated by 31 Federal
hydroelectric projects operated by the U.S. Army Corps of Engineers and the Bureau of
Reclamation, one non-Federal nuclear plant and several small non-Federal power plants.
Bonneville is responsible for the sale and transmission of nearly one-third of the electric power used
in the region it serves. These responsibilities are carried out by nearly 3,100 Federal employees.




Allegations of Retaliation

The OIG is currently conducting a review of allegations that Bonneville engaged in inappropriate
hiring practices. Specifically, it has been alleged that the rights of applicants for Federal positions
were violated, most notably applicants entitled to veterans’ preference. During the course of this
review, as a result of several interviews, we learned that Bonneville employees who had raised
questions to their management regarding violations of personnel practices may have been subjected
to retaliation. We were told that several of these individuals had already filed retaliation complaints
with the U.S. Office of Special Counsel.




We found these allegations to be troubling. Our concern intensified when, in late June and early
July of this year, Bonneville employees indicated that additional retaliatory actions were imminent.
We deemed the sources of the allegations to be credible. Thus, we chose to bring the matter to the
attention of the Department’s senior leaders in a July 16, 2013, Management Alert.1 The

1
 Management Alert on Allegations Regarding Prohibited Personnel Practices at the Bonneville Power Administration
(DOE/IG-0891, July 2013), available at: http://energy.gov/sites/prod/files/2013/07/f2/IG-0891.pdf.

                                                        1
Management Alert is a reporting mechanism that we use in time-sensitive situations which, in our
judgment, require immediate management consideration. Given the circumstances, we concluded
that the threshold had been met in this case and that protecting the involved Bonneville employees
was of paramount importance. In the Management Alert, we recommended that:

   1. All ongoing disciplinary actions of the Bonneville Human Capital Management staff should
       be suspended until our inquiry has been completed and the final results have been provided
       to the Department for full consideration; and
   2. In the case of individuals removed or on administrative leave pending removal, those
       employees should be temporarily restored to their positions.




We provided a draft of the Alert to the Department on July 11, 2013. On July 15, 2013, we
received comments in which the Department expressed its concurrence with the facts, conclusions
and recommendations provided in the Alert. The Department outlined a list of corrective actions
that either had been taken or were to be taken. These included: (1) a request to Bonneville for all
documentation related to proposed adverse actions against two Bonneville employees; (2)
suspension of Bonneville’s authority to take any adverse actions against another employee; and, (3)
direction to Bonneville to stop any proposed removals and to provide the Department with all
information on any adverse actions in process or under consideration. The Department informed us
that the Deputy Secretary directed the Administrator of Bonneville to take no adverse personnel
actions against employees and to immediately convey to all Bonneville employees that they could
cooperate freely with the OIG and other investigations without fear of retaliation.




Hiring Reform and Authorities

As background, on May 11, 2010, the President issued a memorandum, Improving the Federal
Recruitment and Hiring Process, requiring all executive Federal agencies to use “category rating”
for personnel recruitment and hiring. This approach had several objectives, one of which was to
increase the candidate selection pool while still complying with merit system principles and other
requirements of Title 5, United States Code, including veterans’ preference. The Office of


                                                  2
Personnel Management (OPM) delegated the competitive hiring authority to the Department of
Energy and the Department, in turn, delegated this same authority to Bonneville. Effective
November 1, 2010, Bonneville was required to use category rating to rate and rank candidates for
competitive positions. Although category rating has many nuances and subtleties, one critical
component is that the quality category definitions, the basis for formulating the applicant “best
qualified list” at Bonneville, must be developed before the vacancy announcement goes public and
cannot be changed once the vacancy is opened. This is to ensure that all candidates are treated
fairly and equitably.




Allegations Concerning Personnel Practices

I would like to address the status of our work with regard to the core allegations that Bonneville had
engaged in prohibited or inappropriate hiring practices, specifically by changing the quality
category definitions. The complainants raised the concern that these practices had effectively
disadvantaged job applicants, most notably those entitled to veterans’ preference under both OPM
and Department of Energy policies and regulations. We found that the Department had received the
same allegations and initiated a review designed to examine relevant hiring actions and related
vacancy announcements, and to evaluate Bonneville’s policies and procedures. In February 2013,
the Department furnished its findings to the OIG. The Department concluded that the allegations
had merit and identified systemic, prohibited personnel practices.




The OIG promptly initiated a review to determine the underlying causes of the alleged prohibited
personnel violations. Our preliminary findings validated the Department’s conclusion that
Bonneville had engaged in potential prohibited personnel practices by adjusting quality category
definitions after vacancy announcements were closed and applications were reviewed. We noted
that Bonneville employees responsible for rating and ranking applicants relied on informal,
undocumented procedures in this regard. Bonneville claimed that its goal was to present selection
officials with “manageable” applicant pools.




                                                  3
Our emphasis was, and remains, establishing the proximate cause of the improper practices. Let me
stress, as noted in our Management Alert, that our work with regard to the substance of these
allegations is not complete. Any information that was provided in the Alert or any information that
is included in my testimony today is based on preliminary work products that have yet to be
finalized. Additional interviews and document searches are underway. We intend to complete this
effort as promptly as possible.




In addition to our own work and the review by the Department cited previously, this situation has
been the subject of internal reviews by Bonneville itself and an examination by OPM. Final results
of the OPM review have yet to be released in a formal report. Taken collectively, these
examinations have been very revealing. For example, Bonneville’s own data shows that it had
engaged in inappropriate personnel practices in 65 percent (95 of 146 cases) of its competitive
recruitments conducted from November 2010 to June 2012. The data, in essence, confirmed the
allegation that the best qualified lists had been modified after applications were received, which was
in direct contravention of OPM and Department policy. As a result, veterans and other applicants
were inappropriately excluded from consideration for job selection. We were told that Bonneville
changed its work processes and issued new guidance in May 2012 to stop these practices.
However, it appeared that Bonneville failed to take required action to notify the negatively affected
applicants and address the impact associated with the prohibited practices.




As of late June 2013, Bonneville’s hiring authorities have been suspended. These actions were
taken because both OPM and the Department concluded that there were major errors in the vast
majority of the Bonneville files reviewed.




These are serious matters. As indicated, our work in this area continues and we will complete a
report of our findings as quickly as possible.




                                                  4
Mr. Chairman and Members of the Committee, that concludes my statement and I will be happy to
answer any questions you may have.




                                              5
